Case: 18-10211, 06/26/2020, ID: 11734604, DktEntry: 43, Page 1 of 1

FILED
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

No.

JUN 26 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

18-10211

D.C. No.
1:16-cr-00088-LJO-SKO-1
Eastern District of California,
Fresno

STEVEN GERARD WALKER,
Defendant-Appellant.

ORDER

Before: MELLOY,* BYBEE, and N.R. SMITH, Circuit Judges.
The panel judges have voted to deny appellant’s petition for rehearing and
recommended denying the petition for rehearing en banc.
The full court has been advised of the petition for rehearing en banc and no
judge has requested a vote on whether to rehear the matter en banc. Fed. R. App.
P. 35.
Appellant’s petition for rehearing and petition for rehearing en banc, filed
June 2, 2020, is DENIED.

*

The Honorable Michael J. Melloy, United States Circuit Judge for the
U.S. Court of Appeals for the Eighth Circuit, sitting by designation.

A1

( 1 of 1 5)

C a s e: 1 8- 1 0 2 1 1, 0 3/ 2 0/ 2 0 2 0, I D: 1 1 6 3 6 0 5 6, D kt E ntr y: 3 9- 1, P a g e 1 of 1 1

F O R P U B LI C A TI O N

U NI T E D S T A T E S C O U R T O F A P P E A L S
F O R T H E NI N T H CI R C UI T
U NI T E D S T A T E S O F A M E RI C A ,
Pl ai ntiff- A p p ell e e ,
v.
STE VE N G ER AR D W AL KER ,
D ef e n d a nt- A p p ell a nt .

N o. 1 8- 1 0 2 1 1
D. C. N o.
1: 1 6- cr- 0 0 0 8 8- LJ OS K O- 1
O PI NI O N

A p p e al fr o m t h e U nit e d St at es Distri ct C o urt
f or t h e E ast er n Distri ct of C alif or ni a
L a wr e n c e J. O’ N eill, Distri ct J u d g e, Pr esi di n g
Ar g u e d a n d S u b mitt e d O ct o b er 2 4, 2 0 1 9
S a n Fr a n cis c o, C alif or ni a
Fil e d M ar c h 2 0, 2 0 2 0
B ef or e:

Mi c h a el J. M ell o y, * J a y S. B y b e e, a n d N. R a n d y
S mit h, Cir c uit J u d g es.
O pi ni o n b y J u d g e B y b e e

*

T h e H o n or a bl e Mi c h a el J. M ell o y, U nit e d St at es Cir c uit J u d g e f or
t h e U. S. C o urt of A p p e als f or t h e Ei g ht h Cir c uit, sitti n g b y d esi g n ati o n.

B1

( 2 of 1 5)

C a s e: 1 8- 1 0 2 1 1, 0 3/ 2 0/ 2 0 2 0, I D: 1 1 6 3 6 0 5 6, D kt E ntr y: 3 9- 1, P a g e 2 of 1 1

2

U NI T E D S T A T E S V . W A L K E R
S U M M A R Y **
C ri mi n al L a w

T h e p a n el affir m e d a cri mi n al j u d g m e nt i n a c as e i n w hi c h
t h e d ef e n d a nt, w h o pl e a d e d g uilt y t o b ei n g a f el o n i n
p oss essi o n of a fir e ar m, c h all e n g e d t h e a p pli c ati o n of a
fift e e n- y e ar- mi ni m u m s e nt e n ci n g e n h a n c e m e nt u n d er t h e
Ar m e d C ar e er Cri mi n al A ct ( A C C A) b as e d o n his 1 9 9 8,
1 9 9 9, a n d 2 0 1 4 d o m esti c- vi ol e n c e c o n vi cti o ns u n d er
C alif or ni a P e n al C o d e § 2 7 3. 5.
T h e d ef e n d a nt ar g u e d t h at his § 2 7 3. 5 c o n vi cti o ns d o n ot
q u alif y as c at e g ori c al vi ol e nt f el o ni es u n d er t h e A C C A. T h e
p a n el h el d t h at t his c o nt e nti o n is f or e cl os e d b y U nit e d St at es
v. L a uri c o- Y e n o , 5 9 0 F. 3 d 8 1 8 ( 9t h Cir. 2 0 1 0); B a n u el osA y o n v. H ol d er , 6 1 1 F. 3 d 1 0 8 0 ( 9t h Cir. 2 0 1 0); a n d U nit e d
St at es v. A y al a- Ni c a n or , 6 5 9 F. 3 d 7 4 4 ( 9t h Cir. 2 0 1 1).
B e c a us e n o S u pr e m e C o urt or e n- b a n c o pi ni o n fr o m t his
c o urt h as o b vi o usl y li mit e d or ot h er wis e a br o g at e d t h os e
d e cisi o ns, a n d b e c a us e t h e d ef e n d a nt di d n ot s h o w t h at
C alif or ni a l a w r e g ar di n g § 2 7 3. 5 h as c h a n g e d, t h e p a n el
r e affir m e d L a uri c o- Y e n o a n d its pr o g e n y.
T h e d ef e n d a nt als o ar g u e d t h at t h e Si xt h A m e n d m e nt
r e q uir es a j ur y, n ot a s e nt e n ci n g j u d g e, t o fi n d t h at a
d ef e n d a nt’s pri or c o n vi cti o ns w er e f or cri m es o n diff er e nt
o c c asi o ns, a n d t h at t h e distri ct c o urt t h er ef or e tr a ns gr ess e d
t h e Si xt h A m e n d m e nt b y d e ci di n g t h at t h e d ef e n d a nt h a d
c o m mitt e d t hr e e s e p ar at e f el o ni es. T h e p a n el h el d t h at t his
**

T his s u m m ar y c o nstit ut es n o p art of t h e o pi ni o n of t h e c o urt. It h as
b e e n pr e p ar e d b y c o urt st aff f or t h e c o n v e ni e n c e of t h e r e a d er.

B2

( 3 of 1 5)

C a s e: 1 8- 1 0 2 1 1, 0 3/ 2 0/ 2 0 2 0, I D: 1 1 6 3 6 0 5 6, D kt E ntr y: 3 9- 1, P a g e 3 of 1 1

U NI T E D S T A T E S V . W A L K E R

3

ar g u m e nt is f or e cl os e d b y U nit e d St at es v. Gris el , 4 8 8 F. 3 d
8 4 4 ( 9t h Cir. 2 0 0 7) ( e n b a n c), w hi c h h el d t h at a s e nt e n ci n g
j u d g e m a y fi n d t h e d at es of pri or off e ns es i n d e ci di n g if a
d ef e n d a nt h as c o m mitt e d t hr e e or m or e vi ol e nt f el o ni es. T h e
p a n el e x pl ai n e d t h at b e c a us e M at his v. U nit e d St at es , 1 3 6
S. Ct. 2 2 4 3 ( 2 0 1 6), o nl y pr os cri b e d j u d g es fr o m d et er mi ni n g
w h et h er a gi v e n f a ct u al s c e n ari o s u bst a nti v el y q u alifi es as a
pr e di c at e off e ns e, Gris el is n ot cl e arl y irr e c o n cil a bl e wit h
M at his ’s r e as o ni n g or t h e or y.
C O U NS E L
P e g g y S ass o ( ar g u e d), Assist a nt F e d er al D ef e n d er; H e at h er
E. Willi a ms, F e d er al D ef e n d er; Offi c e of t h e F e d er al P u bli c
D ef e n d er, Fr es n o, C alif or ni a; f or D ef e n d a nt- A p p ell a nt.
R oss P e ars o n ( ar g u e d), Assist a nt U nit e d St at es Att or n e y,
C a mil A. S ki p p er, A p p ell at e C hi ef; M c Gr e g or W. S c ott,
U nit e d St at es Att or n e y; U nit e d St at es Att or n e y’s Offi c e,
Fr es n o, C alif or ni a; f or Pl ai ntiff- A p p ell e e.
O PI NI O N
B Y B E E, Cir c uit J u d g e:
D ef e n d a nt St e v e n W al k er c h all e n g es t h e a p pli c ati o n of a
fift e e n- y e ar- mi ni m u m s e nt e n ci n g e n h a n c e m e nt u n d er t h e
Ar m e d C ar e er Cri mi n al A ct ( A C C A) t o his s e nt e n c e f or
b ei n g a f el o n i n p oss essi o n of a fir e ar m. H e m a k es t w o
ar g u m e nts. First, h e s a ys t h at his pr e di c at e d o m esti c- vi ol e n c e
c o n vi cti o ns d o n ot q u alif y as c at e g ori c al vi ol e nt f el o ni es
u n d er t h e A C C A. S e c o n d, h e cl ai ms t h at t h e distri ct c o urt

B3

( 4 of 1 5)

C a s e: 1 8- 1 0 2 1 1, 0 3/ 2 0/ 2 0 2 0, I D: 1 1 6 3 6 0 5 6, D kt E ntr y: 3 9- 1, P a g e 4 of 1 1

4

U NI T E D S T A T E S V . W A L K E R

tr a ns gr ess e d t h e Si xt h A m e n d m e nt b y d e ci di n g t h at W al k er
h a d c o m mitt e d t hr e e s e p ar at e f el o ni es. W al k er’s ass erti o ns,
h o w e v er, ar e f or e cl os e d b y pr e c e d e nt. As s u c h, w e affir m.
I. F A C T S A N D P R O C E D U R A L B A C K G R O U N D
W al k er w as f o u n d i n p oss essi o n of a fir e ar m. H e h a d
t hr e e pri or f el o n y c o n vi cti o ns f or “ willf ull y i nfli ct[i n g]
c or p or al i nj ur y ” o n a s p o us e or c o h a bit a nt i n vi ol ati o n of
C alif or ni a P e n al C o d e § 2 7 3. 5. His t hr e e pri or c o n vi cti o ns
o c c urr e d i n 1 9 9 8, 1 9 9 9, a n d 2 0 1 4.
W al k er pl e a d e d g uilt y t o b ei n g a f el o n i n p oss essi o n of a
fir e ar m. B ut h e di d n ot a d mit t o h a vi n g b e e n c o n vi ct e d of
t hr e e s e p ar at e i n ci d e nts vi ol ati n g § 2 7 3. 5. T h e U nit e d St at es
pr es e nt e d c ertifi e d c o pi es of t h e pri or j u d g m e nts. T h e distri ct
c o urt d et er mi n e d t h at W al k er h a d b e e n pr e vi o usl y c o n vi ct e d
of t hr e e s e p ar at e vi ol e nt f el o ni es, r e q uiri n g t h at h e b e
s e nt e n c e d t o a m a n d at or y- mi ni m u m fift e e n- y e ar s e nt e n c e
u n d er t h e A C C A. S e e 1 8 U. S. C. § 9 2 4( e)( 1). H e a p p e als t his
s e nt e n c e. 1
II. DI S C U S SI O N
W al k er r ais es t w o iss u es c o n c er ni n g his s e nt e n c e. First,
h e cl ai ms t h at his t hr e e pri or c o n vi cti o ns u n d er C alif or ni a
P e n al C o d e § 2 7 3. 5 d o n ot q u alif y as a “ vi ol e nt f el o n y ” u n d er
t h e A C C A, 1 8 U. S. C. § 9 2 4( e)( 2)( B)(i). S e c o n d, h e ar g u es

1
W e r e vi e w d e n o v o a distri ct c o urt’s d et er mi n ati o n t h at a pri or
c o n vi cti o n q u alifi es as a “ vi ol e nt f el o n y ” u n d er t h e A C C A. U nit e d St at es
v. W alt o n , 8 8 1 F. 3 d 7 6 8, 7 7 0 – 7 1 ( 9t h Cir. 2 0 1 8). C o nstit uti o n al q u esti o ns
ar e als o r e vi e w e d d e n o v o. U nit e d St at es v. H ol d e n , 9 0 8 F. 3 d 3 9 5, 3 9 9
( 9t h Cir. 2 0 1 8).

B4

( 5 of 1 5)

C a s e: 1 8- 1 0 2 1 1, 0 3/ 2 0/ 2 0 2 0, I D: 1 1 6 3 6 0 5 6, D kt E ntr y: 3 9- 1, P a g e 5 of 1 1

U NI T E D S T A T E S V . W A L K E R

5

t h at it w as err or u n d er A p pr e n di v. N e w J ers e y , 5 3 0 U. S. 4 6 6
( 2 0 0 0), f or t h e distri ct c o urt t o h a v e d et er mi n e d t h at his pri or
c o n vi cti o ns w er e s e p ar at e i n ci d e nts, a n d t h at s u c h
d et er mi n ati o n h a d t o b e m a d e b y a j ur y. W e will c o nsi d er
e a c h i n t ur n.
A. C o n vi cti o ns U n d er § 2 7 3. 5 C o nstit ut e a C at e g ori c al
“ Vi ol e nt F el o n y ”
T h e A C C A m a k es it “ u nl a wf ul f or a n y p ers o n . . . w h o
h as b e e n c o n vi ct e d i n a n y c o urt of, a cri m e p u nis h a bl e b y
i m pris o n m e nt f or a t er m e x c e e di n g o n e y e ar . . . [t o] p oss ess
i n or aff e cti n g c o m m er c e, a n y fir e ar m . . . . ” 1 8 U. S. C.
§ 9 2 2( g)( 1). A n y p ers o n w h o vi ol at es § 9 2 2( g)( 1) “ a n d h as
t hr e e pr e vi o us c o n vi cti o ns . . . f or a vi ol e nt f el o n y ” s h all b e
i m pris o n e d f or a mi ni m u m of fift e e n y e ars. I d. § 9 2 4( e)( 1).
A pri or c o n vi cti o n m a y q u alif y as a “ vi ol e nt f el o n y ” o nl y if
it “ h as as a n el e m e nt t h e us e, att e m pt e d us e, or t hr e at e n e d us e
of p h ysi c al f or c e a g ai nst t h e p ers o n of a n ot h er. ” 1 8 U. S. C.
§ 9 2 4( e)( 2)( B)(i). W al k er c o nt e n ds t h at his c o n vi cti o ns u n d er
§ 2 7 3. 5 c a n n ot q u alif y b e c a us e i nt e nt t o h ar m t h e vi cti m is
n ot a n el e m e nt of t h at cri m e. 2 S p e cifi c all y, h e p oi nts t o
s e v er al C alif or ni a c as es s p e a ki n g t o h o w c o n vi cti o ns m a y b e
o bt ai n e d u n d er v ari o us ass a ult- a n d- b att er y st at ut es wit h o ut
s h o wi n g a n i nt e nt t o h ar m t h e vi cti m.
W al k er’s ar g u m e nt, h o w e v er, c olli d es h e a dl o n g wit h o ur
pr e c e d e nts. I n U nit e d St at es v. L a uri c o- Y e n o , w e d et er mi n e d
t h at § 2 7 3. 5 w as a “ cri m e of vi ol e n c e ” f or t h e p ur p os es of
U. S. S e nt e n ci n g G ui d eli n e § 2 L 1. 2( b)( 1)( A). 5 9 0 F. 3 d 8 1 8,
2

S e cti o n 2 7 3. 5 pr o vi d es i n r el e v a nt p art: “ A n y p ers o n w h o willf ull y
i nfli cts c or p or al i nj ur y r es ulti n g i n a tr a u m ati c c o n diti o n u p o n a vi cti m . . .
is g uilt y of a f el o n y. ” C al. P e n al C o d e § 2 7 3. 5( a).

B5

( 6 of 1 5)

C a s e: 1 8- 1 0 2 1 1, 0 3/ 2 0/ 2 0 2 0, I D: 1 1 6 3 6 0 5 6, D kt E ntr y: 3 9- 1, P a g e 6 of 1 1

6

U NI T E D S T A T E S V . W A L K E R

8 2 1 – 2 3 ( 9t h Cir. 2 0 1 0).
T h at pr o visi o n i n cr e as es a
s e nt e n c e if t h e d ef e n d a nt c o m mitt e d t hr e e or m or e
“ cri m es of vi ol e n c e. ” U. S. S e nt e n ci n g G ui d eli n es M a n u al
§ 2 L 1. 2( b)( 3)( E) ( U. S. S e nt e n ci n g C o m m’ n 2 0 1 8). “ Cri m e
of vi ol e n c e ” i n t h e S e nt e n ci n g G ui d eli n es is d efi n e d
i d e nti c all y t o t h e p hr as e “ vi ol e nt f el o n y ” i n t h e A C C A:
“[ a] n y ot h er off e ns e u n d er f e d er al, st at e, or l o c al l a w t h at h as
as a n el e m e nt t h e us e, att e m pt e d us e, or t hr e at e n e d us e of
p h ysi c al f or c e a g ai nst t h e p ers o n of a n ot h er. ” I d. § 2 L 1. 2
c mt. n. 2. W e t h er ef or e e m p h asi z e d i n L a uri c o- Y e n o h o w
§ 2 7 3. 5 p u nis h es a “ p ers o n w h o willf ull y i nfli cts ” i nj ur y u p o n
a c o h a bit a nt “ w h er e willf ull y is a s y n o n y m f or i nt e nti o n all y. ”
5 9 0 F. 3 d at 8 2 1.
I n B a n u el os- A y o n v. H ol d er , w e h el d t h at § 2 7 3. 5 “is a
c at e g ori c al cri m e of vi ol e n c e ” f or t h e p ur p os es of 1 8 U. S. C.
§ 1 6( a), w hi c h h as l a n g u a g e i d e nti c al t o § 9 2 4( e)( 1) a n d
U. S. S. G. § 2 L 1. 2 A p pli c ati o n N ot e 2. 6 1 1 F. 3 d 1 0 8 0, 1 0 8 6
( 9t h Cir. 2 0 1 0). W e s p e cifi c all y n ot e d t h at u n d er § 2 7 3. 5 a
d ef e n d a nt m ust “ willf ull y i nfli ct[] . . . a dir e ct a p pli c ati o n of
f or c e o n t h e vi cti m. ” I d. at 1 0 8 4 ( e m p h asis i n ori gi n al)
( q u oti n g P e o pl e v. J a c ks o n , 9 1 C al. R ptr. 2 d 8 0 5, 8 1 0 ( C al.
Ct. A p p. 2 0 0 0)).
W e r e affir m e d b ot h L a uri c o- Y e n o a n d B a n u el os- A y o n i n
U nit e d St at es v. A y al a- Ni c a n or , 6 5 9 F. 3 d 7 4 4, 7 5 3 ( 9t h Cir.
2 0 1 1). A y al a ar g u e d t h at J o h ns o n v. U nit e d St at es , 5 5 9 U. S.
1 3 3 ( 2 0 1 0), u n d er mi n e d L a uri c o- Y e n o b e c a us e e v e n a “sli g ht
t o u c hi n g ” mi g ht c o nstit ut e d o m esti c vi ol e n c e u n d er § 2 7 3. 5.
A y al a- Ni c a n or , 6 5 9 F. 3 d at 7 4 9 – 5 0. W e w er e n ot p ers u a d e d
b y t h e ar g u m e nt t h at s e v er al C alif or ni a C o urt of A p p e al
d e cisi o ns s h o w e d mi n or t o u c hi n g c o ul d vi ol at e § 2 7 3. 5. I d.
at 7 5 0. W e e x pl ai n e d t h at L a uri c o- Y e n o h a d d et er mi n e d t h at
mi ni m al t o u c hi n g c o ul d n ot gi v e ris e t o a c o n vi cti o n u n d er

B6

( 7 of 1 5)

C a s e: 1 8- 1 0 2 1 1, 0 3/ 2 0/ 2 0 2 0, I D: 1 1 6 3 6 0 5 6, D kt E ntr y: 3 9- 1, P a g e 7 of 1 1

U NI T E D S T A T E S V . W A L K E R

7

§ 2 7 3. 5. I d. at 7 4 9 – 5 0. W e c o n cl u d e d t h at “ n ot hi n g i n
J o h ns o n u n d er mi n es t h e v ali dit y of L a uri c o- Y e n o , a
c o n cl usi o n w e alr e a d y r e a c h e d i n B a n u el os- A y o n , a n d t h at w e
r e affir m t o d a y. ” I d. at 7 5 2.
W e fi n d n o gr o u n ds t o d e p art fr o m o ur pri or r e a di n g of
§ 2 7 3. 5 h er e. 3 As a t hr e e-j u d g e p a n el, “[ w] e will n ot o v err ul e
t h e d e cisi o n of a pri or p a n el of o ur c o urt a bs e nt a n e n b a n c
pr o c e e di n g, or a d e m o nstr a bl e c h a n g e i n t h e u n d erl yi n g l a w. ”
K o hl er v. Pr esi di o I nt’l, I n c. , 7 8 2 F. 3 d 1 0 6 4, 1 0 7 0 ( 9t h Cir.
2 0 1 5).
A p a n el m a y fi n d c o ntr olli n g cir c uit pr e c e d e nt
o v err ul e d w h e n “t h e r e as o ni n g or t h e or y of o ur pri or cir c uit
a ut h orit y is cl e arl y irr e c o n cil a bl e wit h t h e r e as o ni n g or
t h e or y of i nt er v e ni n g hi g h er a ut h orit y. ” Mill er v. G a m mi e,
3 3 5 F. 3 d 8 8 9, 8 9 3 ( 9t h Cir. 2 0 0 3) ( e n b a n c) ( e m p h asis
a d d e d).
G e n eri c ass erti o ns t h at o ur pr e c e d e nts ar e
i n c o nsist e nt wit h hi g h er a ut h orit y will n ot d o: “It is n ot
e n o u g h f or t h er e t o b e ‘s o m e t e nsi o n’ b et w e e n t h e i nt er v e ni n g
hi g h er a ut h orit y a n d pri or cir c uit pr e c e d e nt, or f or t h e
i nt er v e ni n g hi g h er a ut h orit y t o ‘ c ast d o u bt’ o n t h e pri or
cir c uit pr e c e d e nt. ” L air v. B ull o c k , 6 9 7 F. 3 d 1 2 0 0, 1 2 0 7 ( 9t h
Cir. 2 0 1 2) ( cit ati o ns o mitt e d). I nst e a d, “[t] h e i nt er v e ni n g
hi g h er pr e c e d e nt m ust b e ‘ cl e arl y i n c o nsist e nt’ wit h t h e pri or
cir c uit pr e c e d e nt. ” I d.
N o S u pr e m e C o urt or e n- b a n c o pi ni o n fr o m o ur c o urt h as
o b vi o usl y li mit e d or ot h er wis e a br o g at e d o ur d e cisi o ns i n
3

W al k er als o ass erts t h at i nt er pr et ati o ns of C alif or ni a’s g e n er al
ass a ult- a n d- b att er y st at ut es ar e a p pli c a bl e h er e b e c a us e § 2 7 3. 5 is j ust
a n ot h er b att er y st at ut e a n d si m pl e b att er y c o ul d i n cl u d e n o n- vi ol e nt
t o u c hi n g. W e c o nsi d er e d a n d r ej e ct e d t his ar g u m e nt i n L a uri c o- Y e n o .
5 9 0 F. 3 d at 8 2 2. I n t h at c as e w e f o u n d t his ar g u m e nt l a c ki n g a n d
c o n cl u d e d t h at § 2 7 3. 5 p e n ali z es d o m esti c vi ol e n c e wit h “i nt e nti o n al us e
of f or c e t h at r es ults i n a tr a u m ati c c o n diti o n. ” I d.

B7

( 8 of 1 5)

C a s e: 1 8- 1 0 2 1 1, 0 3/ 2 0/ 2 0 2 0, I D: 1 1 6 3 6 0 5 6, D kt E ntr y: 3 9- 1, P a g e 8 of 1 1

8

U NI T E D S T A T E S V . W A L K E R

L a uri c o- Y e n o , A y al a- Ni c a n or , or B a n u el os- A y o n . N or h as
W al k er s h o w n t h at C alif or ni a l a w r e g ar di n g § 2 7 3. 5 h as
c h a n g e d.
W e t h er ef or e r e affir m L a uri c o- Y e n o a n d its
pr o g e n y.
B. A S e nt e n ci n g J u d g e M a y D et er mi n e t h e N u m b er of Pri or
C o n vi cti o ns
W e t ur n n e xt t o W al k er’ s c o nt e nti o n t h at t h e Si xt h
A m e n d m e nt f or bi ds a s e nt e n ci n g j u d g e fr o m d et er mi ni n g
w h et h er pri or c o n vi cti o ns o c c urr e d o n s e p ar at e o c c asi o ns.
F or W al k er t o r e c ei v e t h e fift e e n- y e ar m a n d at or y mi ni m u m
u n d er t h e A C C A, h e m ust h a v e h a d “t hr e e pr e vi o us [ vi ol e nt
f el o n y] c o n vi cti o ns . . . c o m mitt e d o n o c c asi o ns diff er e nt
fr o m o n e a n ot h er. ” 1 8 U. S. C. § 9 2 4( e)( 1). W al k er ass erts
t h at t h e Si xt h A m e n d m e nt r e q uir es a j ur y, n ot a s e nt e n ci n g
j u d g e, t o fi n d t h at a d ef e n d a nt’s pri or c o n vi cti o ns w er e f or
cri m es c o m mitt e d o n diff er e nt o c c asi o ns. B ut, o n c e a g ai n,
W al k er’s ar g u m e nt is f or e cl os e d b y cir c uit pr e c e d e nt.
U n d er A p pr e n di , f a cts t h at i n cr e as e t h e p e n alt y of a
c o n vi cti o n m ust b e f o u n d b y t h e j ur y b e y o n d a r e as o n a bl e
d o u bt. 5 3 0 U. S. at 4 9 0. H o w e v er, a s e nt e n ci n g j u d g e m a y
fi n d “t h e f a ct of a pri or c o n vi cti o n ” a n d e n h a n c e t h e s e nt e n c e
a c c or di n gl y. I d. T h e s p e cifi c iss u e h er e is w h et h er a j u d g e
c a n fi n d t h at e a c h c o n vi cti o n w as a “s e p ar at e ” i n ci d e nt f or t h e
p ur p os es of a p pl yi n g t h e A C C A.
W e pr e vi o usl y h el d t h at a s e nt e n ci n g j u d g e m a y fi n d t h e
d at es of pri or off e ns es i n d e ci di n g if a d ef e n d a nt h as
c o m mitt e d t hr e e or m or e vi ol e nt f el o ni es. S e e U nit e d St at es
v. Gris el , 4 8 8 F. 3 d 8 4 4, 8 4 5 – 4 7 ( 9t h Cir. 2 0 0 7) ( e n b a n c),
a br o g at e d-i n- p art o n ot h er gr o u n ds b y U nit e d St at es v. Stitt ,
1 3 9 S. Ct. 3 9 9 ( 2 0 1 8). Gris el r ej e ct e d t h e ar g u m e nt t h at t h e

B8

( 9 of 1 5)

C a s e: 1 8- 1 0 2 1 1, 0 3/ 2 0/ 2 0 2 0, I D: 1 1 6 3 6 0 5 6, D kt E ntr y: 3 9- 1, P a g e 9 of 1 1

U NI T E D S T A T E S V . W A L K E R

9

s e nt e n ci n g j u d g e’s fi n di n g t h e d at es of a gi v e n off e ns e f ell
“ o utsi d e [ A p pr e n di ’s] pri or- c o n vi cti o n e x c e pti o n. ” I d. at 8 4 6.
W e e x pl ai n e d t h at “t h e d at e of t h e off e ns e ” is a f a ct
d et er mi n a bl e o n “t h e f a c e of t h e d o c u m e nt d e m o nstr ati n g
D ef e n d a nt’s pri or c o n vi cti o n. ” I d. at 8 4 7. H e n c e, t h e d at e of
t h e off e ns e is i nti m at el y c o n n e ct e d wit h t h e f a ct of a pri or
c o n vi cti o n. I d. As w e n ot e d i n Gris el , o ur d e cisi o n a c c or d e d
wit h t h e d e cisi o ns of n o f e w er t h a n si x cir c uits. S e e i d. n. 1;
s e e, e. g., U nit e d St at es v. B ur gi n , 3 8 8 F. 3 d 1 7 7, 1 8 6 ( 6t h Cir.
2 0 0 4) ( “[ T] h e ‘ diff er e nt o c c asi o ns’ r e q uir e m e nt of § 9 2 4( e)
c a n n ot b e si g nifi c a ntl y disti n g uis h e d fr o m ‘t h e f a ct of a pri or
c o n vi cti o n.’ ”). A n d, si n c e Gris el , at l e ast o n e ot h er cir c uit
h as f o u n d n o Si xt h A m e n d m e nt pr o bl e m wit h a s e nt e n ci n g
j u d g e d et er mi ni n g w h et h er a d ef e n d a nt’s pri or c o n vi cti o ns
w er e f or cri m es c o m mitt e d o n s e p ar at e o c c asi o ns. S e e, e. g. ,
U nit e d St at es v. Bl air , 7 3 4 F. 3 d 2 1 8, 2 2 8 ( 3 d Cir. 2 0 1 3)
(r ej e cti n g t h e ar g u m e nt t h at a j ur y m ust fi n d t h e d at es of pri or
c o n vi cti o ns a n d c oll e cti n g c as es e x pl ai ni n g t h e s a m e).
T o g et ar o u n d Gris el , W al k er cl ai ms t h at t h e c as e h as
b e e n i m pli citl y o v err ul e d b y M at his v. U nit e d St at es , 1 3 6 S.
Ct. 2 2 4 3, 2 2 5 3 ( 2 0 1 6). S p e cifi c all y, h e p oi nts t o dis c ussi o ns
i n M at his e x pl ai ni n g t h at a “ n o n- el e m e nt al f a ct ” c a n n ot b e
us e d t o e n h a n c e s e nt e n c es u n d er t h e A C C A. T h us, h e ass erts
t h at b e c a us e t h e d at es of his pri or c o n vi cti o ns ar e n o nel e m e nt al f a cts, t h e y c a n n ot b e c o nsi d er e d b y t h e s e nt e n ci n g
j u d g e f or t h e p ur p os es of a p pl yi n g t h e A C C A.
C o nt e xt, h o w e v er, s h o ws t h at M at his is n ot s o
e n c o m p assi n g as t o a br o g at e Gris el . T h e o nl y iss u e i n M at his
w as w h et h er j u d g es c o ul d d et er mi n e if a cri m e w as a n A C C A
pr e di c at e f or st at ut es “ e n u m er at[i n g] v ari o us f a ct u al m e a ns of
c o m mitti n g a si n gl e el e m e nt ” of a gi v e n cri m e —i. e., w h et h er
t h e c at e g ori c al a p pr o a c h c o ul d a p pl y t o t h es e t y p es of

B9

( 1 0 of 1 5)

C a s e: 1 8- 1 0 2 1 1, 0 3/ 2 0/ 2 0 2 0, I D: 1 1 6 3 6 0 5 6, D kt E ntr y: 3 9- 1, P a g e 1 0 of 1 1

10

U NI T E D S T A T E S V . W A L K E R

st at ut es. M at his , 1 3 6 S. Ct. at 2 2 4 9. T h e S u pr e m e C o urt’s
c o n c er n w as t h at j u d g es w o ul d n e c ess aril y c o nsi d er t h e f a cts
u n d erl yi n g t h e off e ns e — a n a p pr o a c h a ntit h eti c al t o A C C A
j uris pr u d e n c e. I d. at 2 2 5 1. I n li n e wit h t h e C o urt’s pri or
h ol di n gs, M at his c o n cl u d e d t h at “ a s e nt e n ci n g j u d g e m a y
l o o k o nl y t o ‘t h e el e m e nts of t h e [ off e ns e], n ot t o t h e f a cts of
[t h e] d ef e n d a nt’s c o n d u ct’ ” i n d et er mi ni n g w h et h er t h e st at el a w c o n vi cti o n w as a n A C C A pr e di c at e. I d. ( alt er ati o ns i n
ori gi n al). M at his , t h er ef or e, o nl y pr os cri b e d j u d g es fr o m
d et er mi ni n g w h et h er a gi v e n f a ct u al s c e n ari o s u bst a nti v el y
q u alifi es as a pr e di c at e off e ns e. S e e i d. at 2 2 5 2 ( “[ A] j u d g e
c a n n ot g o b e y o n d i d e ntif yi n g t h e cri m e of c o n vi cti o n t o
e x pl or e t h e m a n n er i n w hi c h t h e d ef e n d a nt c o m mitt e d t h at
off e ns e. ”). M at his di d n ot s p e a k t o c o urts l o o ki n g at d at es of
c o n vi cti o n.
Wit h n o o n- p oi nt dis c ussi o n i n M at his r e g ar di n g h o w
j u d g es d et er mi n e t h e n u m b er of pri or off e ns es, W al k er f ails
t o s h o w t h at Gris el “is cl e arl y irr e c o n cil a bl e wit h [M at his ’s]
r e as o ni n g or t h e or y. ” Mill er , 3 3 5 F. 3 d at 8 9 3. T o t h e e xt e nt
t h at M at his
e x pr ess es br o a d er disf a v or of f a ct u al
d et er mi n ati o ns b y s e nt e n ci n g j u d g es, it is n ot cl e ar w h et h er
a n d h o w t his disf a v or e xt e n ds b e y o n d d et er mi ni n g t h at a
gi v e n st at e-l a w cri m e is a n A C C A pr e di c at e. S e e U nit e d
St at es v. D u n n , 7 2 8 F. 3 d 1 1 5 1, 1 1 5 6 ( 9t h Cir. 2 0 1 3)
( “ Alt h o u g h t h e cir c uit o pi ni o n n e e d n ot b e e x pr essl y
o v err ul e d b y t h e S u pr e m e C o urt, b ot h t h e cir c uit a n d
S u pr e m e C o urt c as es m ust b e ‘ cl os el y o n p oi nt.’ ” ( q u oti n g
Mill er , 3 3 5 F. 3 d at 8 9 9)). P oi nti n g t o “‘s o m e t e nsi o n’
b et w e e n [str a y st at e m e nts i n M at his ] a n d pri or cir c uit
pr e c e d e nt ” is n ot e n o u g h f or t h e p a n el t o c o nsi d er
Gris el o v err ul e d. L air , 6 9 7 F. 3 d at 1 2 0 7. I n fi n di n g t h at
W al k er h a d b e e n c o n vi ct e d of t hr e e or m or e vi ol e nt f el o ni es,
t h e s e nt e n ci n g j u d g e n e e d e d t o l o o k n o f urt h er t h a n t h e f a c e

B10

( 1 1 of 1 5)

C a s e: 1 8- 1 0 2 1 1, 0 3/ 2 0/ 2 0 2 0, I D: 1 1 6 3 6 0 5 6, D kt E ntr y: 3 9- 1, P a g e 1 1 of 1 1

U NI T E D S T A T E S V . W A L K E R

11

of t h e c ertifi e d j u d g m e nts t o d et er mi n e t h es e c o n vi cti o ns
w er e f or disti n ct a cts. S e e U nit e d St at es v. H arris , 4 4 7 F. 3 d
1 3 0 0, 1 3 0 4 ( 1 0t h Cir. 2 0 0 6) ( “ T h e ti m e, pl a c e, a n d s u bst a n c e
of t h e pri or c o n vi cti o ns c a n or di n aril y b e as c ert ai n e d fr o m
c o urt r e c or ds ass o ci at e d wit h t h os e c o n vi cti o ns, a n d t h e
S u pr e m e C o urt h as h el d t h at t h e C o nstit uti o n all o ws
s e nt e n ci n g c o urts t o r el y o n s u c h r e c or ds t o m a k e fi n di n gs
a b o ut pri or c o n vi cti o ns. ”); a c c or d U nit e d St at es v. T h o m ps o n ,
4 2 1 F. 3 d 2 7 8, 2 8 2 – 8 3 ( 4t h Cir. 2 0 0 5) ( e x pl ai ni n g t h at t h e
“ d at e, st at ut or y vi ol ati o n, a n d t h e li k e ” ar e “ as m u c h a p art of
t h e c o n vi cti o n as t h e f a ct t h at t w el v e j ur ors a gr e e d a b o ut t h e
d ef e n d a nt’s g uilt ”); U nit e d St at es v. S a nti a g o, 2 6 8 F. 3 d 1 5 1,
1 5 6 ( 2 d Cir. 2 0 0 1) ( S ot o m a y or, J.) ( “[ W] e r e a d A p pr e n di as
l e a vi n g t o t h e j u d g e, c o nsist e nt wit h d u e pr o c ess, t h e t as k of
fi n di n g n ot o nl y t h e m er e f a ct of pr e vi o us c o n vi cti o ns b ut
ot h er r el at e d iss u es as w ell. ”). T h us, p er Gris el , t h e distri ct
c o urt di d n ot err i n m a ki n g a fi n di n g t h at W al k er c o m mitt e d
t hr e e s e p ar at e off e ns es.
III. C O N C L U SI O N
D es pit e his b est eff orts, W al k er h as f ail e d t o d e m o nstr at e
t h at o ur pri or d e cisi o ns ar e o b vi o usl y i n c o nsist e nt wit h
i nt er v e ni n g S u pr e m e C o urt o pi ni o ns. W e t h er ef or e c a n n ot
a n d will n ot d e cl ar e o ur pri or pr e c e d e nts c a us a n o n gr at a.
T h e j u d g m e nt is
A F FI R M E D.

B11

Case 1:16-cr-00088-LJO-SKO Document 37 Filed 05/25/18 Page 1 of 7
AO 245B-CAED(Rev. 11/2016) Sheet 1 - Judgment in a Criminal Case

UNITED STATES DISTRICT COURT
Eastern District of California
UNITED STATES OF AMERICA
v.
STEVEN GERARD WALKER

JUDGMENT IN A CRIMINAL CASE
Case Number: 1:16CR00088-001
Defendant's Attorney: Roger Shahriar Bonakdar, Appointed

THE DEFENDANT:

I I
I I
I I

pleaded guilty to count(s) 1 of the Indictment.
which was accepted by the court.
pleaded nolo contendere to count(s)
after a plea of not guilty.
was found guilty on count(s)

The defendant is adjudicated guilty of these offenses:
Title & Section

Nature Of Offense

Date Offense
Concluded

18 U.S.C. §922(g)(1)

FELON IN POSSESSION OF A FIREARM AND
AMMUNITION
(Class A Felony)

May 25, 2016

Count
Number

I

ID
1

The defendant is sentenced as provided in pages 2 through 7 of this judgment. The sentence is imposed pursuant to the
Sentencing Reform Act of 1984.

I I
I I
I I
I I

I

.
The defendant has been found not guilty on count(s)
dismissed on the motion of the United States.
Count(s)
- is to be dismissed by District Court on motion of the United States.
Indictment
Appeal rights given.
Appeal rights waived.
I. I

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution or fine, the defendant must notify the court and United States Attorney of material changes in economic
circumstances.
5/21/2018
Date of Imposition of Judgment
/s/ Lawrence J. O'Neill
Signature of Judicial Officer
Lawrence J. O'Neill, United States District Judge
Name & Title of Judicial Officer
5/25/2018
Date

C1

Case 1:16-cr-00088-LJO-SKO Document 37 Filed 05/25/18 Page 2 of 7
AO 245B-CAED(Rev. 11/2016) Sheet 2 - Imprisonment

DEFENDANT:STEVEN GERARD WALKER
CASE NUMBER:1:16CR00088-001

Page 2 of 7

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a total term of:
180 months.
[ ]

No TSR: Defendant shall cooperate in the collection of DNA.

['11

The court makes the following recommendations to the Bureau of Prisons:
The Court recommends that the defendant be incarcerated at Lompoc, CA or in a California facility, but only insofar as this
accords with security classification and space availability. The Court recommends the defendant participate in the 500-Hour
Bureau of Prisons Substance Abuse Treatment Program.

["]

The defendant is remanded to the custody of the United States Marshal.

[ ]

The defendant shall surrender to the United States Marshal for this district
on
.
at
as notified by the United States Marshal.
[ ]
[ ]

[ ]

The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
before
on
.
[ ]
as notified by the United States Marshal.
[ ]
[ ]
as notified by the Probation or Pretrial Services Officer.
If no such institution has been designated, to the United States Marshal for this district.

RETURN
I have executed this judgment as follows:

Defendant delivered on
at

to
, with a certified copy of this judgment.

United States Marshal
By Deputy United States Marshal

C2

Case 1:16-cr-00088-LJO-SKO Document 37 Filed 05/25/18 Page 3 of 7
AO 245B-CAED(Rev. 11/2016) Sheet 3 - Supervised Release

DEFENDANT:STEVEN GERARD WALKER
CASE NUMBER:1:16CR00088-001

Page 3 of 7

SUPERVISED RELEASE
Upon release from imprisonment, you will be on supervised release for a term of :
60 months.

MANDATORY CONDITIONS
You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of controlled substance. You must submit to one drug test within 15 days of release from
imprisonment and at least two (2) periodic drug tests thereafter, not to exceed four (4) drug tests per month.

[ ]

The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future substance
abuse.

[ ]

You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence of
restitution.

M

You must cooperate in the collection of DNA as directed by the probation officer.

[ ]

You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et seq.) as
directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in the location where you
reside, work, are a student, or were convicted of a qualifying offense.

[ ]

You must participate in an approved program for domestic violence.

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the
attached page.

C3

Case 1:16-cr-00088-LJO-SKO Document 37 Filed 05/25/18 Page 4 of 7
AO 245B-CAED(Rev. 11/2016) Sheet 3 - Supervised Release

DEFENDANT:STEVEN GERARD WALKER
CASE NUMBER:1:16CR00088-001

Page 4 of 7

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1.

2.
3.
4.
5.

6.
7.

8.

9.
10.

11.
12.

13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a
different time frame.
After initially reporting to the probation office, you will receive instructions from the Court or the probation officer about
how and when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission
from the Court or the probation officer.
You must answer truthfully the questions asked by the probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your
living arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the
change. If notifying the probation officer in advance is not possible due to unanticipated circumstances, you must notify the
probation officer within 72 hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation
officer to take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses
you from doing so. If you do not have full-time employment, you must try to find full-time employment, unless the probation
officer excuses you from doing so. If you plan to change where you work or anything about your work (such as your position
or your job responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the
probation officer at least 10 days in advance is not possible due to unanticipated circumstances, you must notify the probation
officer within 72 hours of becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has
been convicted of a felony, you must not knowingly communicate or interact with that person without first getting the
permission of the probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything
that was designed, or was modified for, the specific purpose of causing bodily injury or death to another person, such as
nunchakus or tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant
without first getting the permission of the Court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer
may require you to notify the person about the risk and you must comply with that instruction. The probation officer may
contact the person and confirm that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview of Probation and Supervised
Release Conditions, available at: www.uscourts.gov.
Defendant's Signature _____________________________ Date _________________

C4

Case 1:16-cr-00088-LJO-SKO Document 37 Filed 05/25/18 Page 5 of 7
AO 245B-CAED(Rev. 11/2016) Sheet 3 - Supervised Release

DEFENDANT:STEVEN GERARD WALKER
CASE NUMBER:1:16CR00088-001

Page 5 of 7

SPECIAL CONDITIONS OF SUPERVISION
1.

As directed by the probation officer, the defendant shall participate in an outpatient correctional treatment program to obtain
assistance for drug or alcohol abuse.

2.

As directed by the probation officer, the defendant shall participate in a program of testing (i.e. breath, urine, sweat patch,
etc.) to determine if he has reverted to the use of drugs or alcohol.

3.

The defendant shall abstain from the use of alcoholic beverages and shall not frequent those places where alcohol is the chief
item of sale.

4.

As directed by the probation officer, the defendant shall participate in a program of outpatient mental health treatment.

5.

As directed by the probation officer, the defendant shall complete up to 20 hours of unpaid community service per week until
employed for at least 30 hours per week or participating in a previously approved educational or vocational program.

6.

As directed by the probation officer, the defendant shall participate in a co-payment plan for treatment or testing and shall
make payment directly to the vendor under contract with the United States Probation Office of up to $25 per month.

7.

The defendant shall submit to the search of his person, property, house, residence, vehicle, papers, computer, other electronic
communication or data storage devices or media, and effects at any time, with or without a warrant, by any law enforcement
or probation officer in the lawful discharge of the officer’s supervision functions with reasonable suspicion concerning
unlawful conduct or a violation of a condition of probation or supervised release. Failure to submit to a search may be
grounds for revocation. The defendant shall warn any other residents that the premises may be subject to searches pursuant to
this condition.

C5

Case 1:16-cr-00088-LJO-SKO Document 37 Filed 05/25/18 Page 6 of 7
AO 245B-CAED(Rev. 11/2016) Sheet 5 - Criminal Monetary Penalties

DEFENDANT:STEVEN GERARD WALKER
CASE NUMBER:1:16CR00088-001

Page 6 of 7

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the Schedule of Payments on Sheet 6.
Assessment
$100

TOTALS

Fine

Restitution

[ ]

The determination of restitution is deferred until
after such determination.

[ ]

The defendant must make restitution (including community restitution) to the following payees in the amount listed below.

. An Amended Judgment in a Criminal Case (AO 245C) will be entered

If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified
otherwise in the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal
victims must be paid before the United States is paid.
[ ]

Restitution amount ordered pursuant to plea agreement $

[ ]

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
the fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be
subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

[ ]

The court determined that the defendant does not have the ability to pay interest and it is ordered that:
[ ]

The interest requirement is waived for the

[ ]

The interest requirement for the

[ ] fine

[ ] fine

[] restitution

[ ] restitution

is modified as follows:

[ ]

If incarcerated, payment of the fine is due during imprisonment at the rate of not less than $25 per quarter and payment shall be
through the Bureau of Prisons Inmate Financial Responsibility Program.

[ ]

If incarcerated, payment of the restitution is due during imprisonment at the rate of not less than $25 per quarter and payment
shall be through the Bureau of Prisons Inmate Financial Responsibility Program.

*Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed
on or after September 13, 1994, but before April 23, 1996.

C6

Case 1:16-cr-00088-LJO-SKO Document 37 Filed 05/25/18 Page 7 of 7
AO 245B-CAED(Rev. 11/2016) Sheet 6 - Schedule of Payments

DEFENDANT:STEVEN GERARD WALKER
CASE NUMBER:1:16CR00088-001

Page 7 of 7

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay, payment of the total criminal monetary penalties is due as follows:
A.

M

Lump sum payment of $ 100.00 due immediately, balance due
[]
[ ]

Not later than
in accordance

, or
l l C,

l l D,

l l E,or

l l F below; or
[ ] C,

[ ] D,

or [ ] F below); or

B.

[ ]

Payment to begin immediately (may be combined with

C.

[ ]

Payment in equal
(e.g. weekly, monthly, quarterly) installments of $
over a period of
(e.g. 30 or 60 days) after the date of this judgment; or
years), to commence

D.

[ ]

(e.g. weekly, monthly, quarterly) installments of $
over a period of
(e.g. months or
Payment in equal
(e.g. 30 or 60 days) after release from imprisonment to a term of supervision; or
years), to commence

E.

[ ]

(e.g. 30 or 60 days) after release
Payment during the term of supervised release/probation will commence within
from imprisonment. The court will set the payment plan based on an assessment of the defendants ability to pay at
that time; or

F.

[ ]

Special instructions regarding the payment of criminal monetary penalties:

(e.g. months or

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is
due during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’
Inmate Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.
[ ]

Joint and Several

Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate:
[ ]

The defendant shall pay the cost of prosecution.

[ ]

The defendant shall pay the following court cost(s):

M

The defendant shall forfeit the defendant's interest in the following property to the United States:
Preliminary Order of Forfeiture filed April 23, 2018 is made FINAL.

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) JVTA assessment, (8) penalties, and (9) costs, including cost of prosecution and court
costs.

C7

